Audit Report - Office of Justice Programs Residential Substance Abuse Treatment Grant Awarded to the Colorado Division of Criminal Justice, Denver, Colorado

Office of Justice Programs Residential Substance Abuse Treatment Grant 
Awarded to the Colorado Division of Criminal Justice, Denver, Colorado

Audit Report GR-60-05-011


August 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Residential and Substance Abuse Treatment (RSAT) Grant No. 2003-RT-BX-0024 in the amount of $903,673 awarded by the Office of Justice Programs (OJP) to the Colorado Division of Criminal Justice (DCJ), Denver, Colorado.  The RSAT grant assists state and local governments in developing and implementing substance abuse treatment programs in state and local correctional and detention facilities.  The RSAT program also assists state and local governments in creating and maintaining community-based aftercare services for offenders who are released from institutionally-based substance abuse programs.  Specifically, the grant provided funds to:  (1) focus on the substance abuse problems of offenders and develop offenders behavioral, social and vocational skills, (2) provide intensive residential treatment for adult and juvenile inmates, and (3) facilitate the development of a greater continuum of relapse prevention and aftercare services for offenders within the identified target population.   

The DCJ provided RSAT grant funds to three subrecipients: Division of Youth Corrections (DYC), University of Colorado Health Sciences Center (UCHSC), and the Department of Corrections (DOC).  The mission of the DYC is to enhance and improve the drug and alcohol treatment services to youth assessed as being in severe need of various treatment services.  For the UCHSC, the primary goals are to enhance the educational status of clients and reduce relapse and recidivism.  For the DOC, their goal is to provide continuum of treatment services for substance abusers at more intensive levels than received elsewhere.  

We tested the accounting records to determine if costs claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Specifically we reviewed budgeting, monitoring of subgrantees, expenditures, drawdowns, matching costs, and required reports.  As of January 24, 2005, the DCJ had been reimbursed $778,600 of the $903,673 total grant funds awarded.  

Our audit revealed that a portion of subrecipient personnel costs paid from the grant were not approved in the Statement of Grant Award (SOGA), and that the DYC did not always identify the local cash match in accounting records.  Also, the report used by the grantee to report the number of inmates treated was not always supported.  Specifically, we found:


Subrecipient personnel costs were incorrectly charged to the grant, resulting in questioned costs of $3,701.1
The DYC local cash match for the RSAT grant was not identified in the accounting records.

	The number of participants shown as entering the residential treatment and aftercare programs on the 2004 Annual Performance Reports was not always supported.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.

  



Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of dollar-related findings and the definition of questioned costs.